Case: 18-10025

Document: 00515380876

Page: 1

Date Filed: 04/14/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 18-10025
Summary Calendar

FILED
April 14, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
RYAN DENNIS,
Defendant - Appellant

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:16-CV-577
Before WIENER, HAYNES, and COSTA, Circuit Judges.
PER CURIAM:*
In December 2008, a jury convicted Ryan Dennis of possessing a firearm
after a felony conviction, in violation of 18 U.S.C. § 922(g)(1). Although the
statutory maximum for such an offense is generally ten years in prison, 18
U.S.C. § 924(a)(2), because Dennis was found to have had three prior
convictions for violent felonies under the Armed Career Criminal Act (ACCA),

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

Dennis v. United States
Petition Appendix

1a

Case: 18-10025

Document: 00515380876

Page: 2

Date Filed: 04/14/2020

No. 18-10025
id. § 924(e), he was subject to a statutory minimum of fifteen years. The
district court sentenced Dennis under the ACCA to 288 months in prison, to be
followed by a three-year supervised release term.

We affirmed on direct

appeal, and the Supreme Court denied certiorari. United States v. Dennis, 365
F. App’x 591, 592–95 (5th Cir.), cert. denied, 561 U.S. 1016 (2010). Dennis filed
an unsuccessful § 2255 motion, and we denied a certificate of appealability
(COA).
In 2016, Dennis moved for authorization to file a second or successive
§ 2255 motion, arguing that he was improperly sentenced under the ACCA in
light of the Supreme Court’s decision in Johnson v. United States, 135 S. Ct.
2551 (2015). We granted authorization to file. In re Dennis, Case No. 16-10581
(5th Cir. Jun. 28, 2016).

The district court denied relief on the merits,

concluding that, even without relying on the residual clause, Dennis’s criminal
history met the requirements for three violent felonies under the still-valid
portions of the ACCA. Dennis timely appealed.
Although the Government does not address this issue in any detail in its
briefing and the district court did not address it directly, we are required to
address our jurisdiction sua sponte, if necessary. See United States v. Wiese,
896 F.3d 720, 723 (5th Cir. 2018), cert. denied, 139 S. Ct. 1328 (2019); Solsona
v. Warden, F.C.I., 821 F.2d 1129, 1132 n.2 (5th Cir. 1987); see also United
States v. Ricks, 756 F. App’x 488, 489 (5th Cir.) (addressing the jurisdictional
issue for a successive § 2255 motion based on Johnson after granting a COA as
to the district court’s merits determination), cert. denied, 140 S. Ct. 327 (2019).
“A second or successive habeas application must meet strict procedural
requirements before a district court can properly reach the merits of the
application.” Wiese, 896 F.3d at 723; see 28 U.S.C. §§ 2244(b), 2255(h). A
prisoner pursuing a successive § 2255 motion must pass through two
jurisdictional “gates” to have his motion heard on the merits. Wiese, 896 F.3d
Dennis v. United States
Petition Appendix

2
2a

Case: 18-10025

Document: 00515380876

Page: 3

Date Filed: 04/14/2020

No. 18-10025
at 723.

Dennis has passed through the first gate by obtaining our

authorization to file a successive motion. See id. While Dennis was required
to make only a prima facie showing to obtain authorization for the successive
motion from this court, to pass through the second gate, he “must actually
prove at the district court level that the relief he seeks relies . . . on a new,
retroactive rule of constitutional law.” Wiese, 896 F.3d at 723; see 28 U.S.C.
§ 2255(h)(2). 1
A prisoner making a Johnson claim must prove that “it was more likely
than not that he was sentenced under the residual clause.” United States v.
Clay, 921 F.3d 550, 559 (5th Cir. 2019), cert. denied, 140 S. Ct. 866 (2020). If
he fails to make that showing, we have jurisdiction only for the purpose of
correcting the district court’s error in considering the cause of action. Wiese,
896 F.3d at 723, 726 (noting also that in such a situation, this court would
vacate the district court’s judgment and dismiss the successive § 2255 motion
for lack of jurisdiction).
In considering the jurisdictional question at issue here, we “must look to
the law at the time of sentencing to determine whether a sentence was imposed
under” the now-invalid residual clause or one of the remaining clauses. Wiese,
896 F.3d at 724; see also Clay, 921 F.3d at 556. We may also consider the
sentencing record, the legal landscape at the time of sentencing, the presentence report (PSR), and other relevant materials before the sentencing
court.

Wiese, 896 F.3d at 725.

Changes to the law that occurred after

sentencing should not be considered, unless the change is a new rule of

Dennis maintains that despite the language in Wiese, the second gateway is not in
fact “jurisdictional” and that the Government has waived or forfeited the issue by not raising
it before the district court. We are bound by our precedent, not the position of the U.S.
Department of Justice cited by Dennis.
1

Dennis v. United States
Petition Appendix

3
3a

Case: 18-10025

Document: 00515380876

Page: 4

Date Filed: 04/14/2020

No. 18-10025
constitutional law announced by the Supreme Court and made retroactive to
cases on collateral review. Id. at 725–26.
According to the charging instruments, in February 1996 Dennis caused
bodily injury to a victim by striking him with a firearm and used or exhibited
a deadly weapon while committing the assault. On July 20, 2004, Dennis
intentionally or knowingly threatened bodily injury to two separate victims
and used or exhibited a deadly weapon during the assaults. In a separate event
on July 23, 2004, Dennis threatened imminent bodily injury to a victim and
used a deadly weapon during the assault. Dennis argues that his prior Texas
aggravated assault convictions are not violent felonies because assault under
Texas Penal Code § 22.01 can be committed in ways that do not necessarily
involve the use of physical force and can be committed with recklessness as
opposed to specific intent to use force. He thus contends that, at the time of
his sentencing, the law would have established that assault did not include as
an element the requisite use of force.
We conclude that Dennis has failed to show that it is “more likely than
not” that the sentencing court relied upon the residual clause. The record does
not reflect that the sentencing court considered the residual clause. While we
have held that the district court is not permitted to rely solely on the PSR’s
characterization of a prior conviction for sentence-enhancement purposes, see
United States v. Garza-Lopez, 410 F.3d 268, 273–75 (5th Cir. 2005), in Wiese
we noted that this court may look to the PSR in determining whether the
sentencing court relied on the residual clause. 896 F.3d at 725. The PSR
reflects that Dennis was convicted of aggravated assault with a deadly weapon,
which is codified at § 22.02(a)(2) of the Texas Penal Code. 2 Looking at “the

Dennis contends that the district court was not permitted to rely upon the PSR, but
the issue here is whether Dennis has shown that the district court relied upon the residual
clause. The PSR supports that the district court did not.
2

Dennis v. United States
Petition Appendix

4
4a

Case: 18-10025

Document: 00515380876

Page: 5

Date Filed: 04/14/2020

No. 18-10025
landscape,” it is true that at the time of Dennis’s sentencing in 2009, we had
held that a violation of § 22.01, standing alone, did not fall under the elements
clause in U.S.S.G. § 2L1.2 because it may be committed by acts that do not
involve violence or a direct use of force.

See United States v. Villegas-

Hernandez, 468 F.3d 874, 878–85 (5th Cir. 2006). 3 But we had reached a
different conclusion (albeit addressing an enumerated-offense issue) where the
aggravating factor was a deadly weapon. See United States v. Guillen-Alvarez,
489 F.3d 197, 199–201 (5th Cir. 2007) (holding that aggravated assault with a
deadly weapon (a knife) is categorically a crime of violence for purposes of
§ 2L1.2(b)(1)(A)(ii)). Opinions issued after Dennis’s sentencing also suggest
that “the landscape” was not reliant on the residual clause. See, e.g., United
States v. Guzman, 797 F.3d 346, 347–48 (5th Cir. 2015) (per curiam).
As we held in Clay, “if ‘it is unclear from the record whether the
sentencing court had relied on the residual clause,’ the prisoner—who bears
the burden of proof—‘loses.’” 921 F.3d at 558 (quoting Beeman v. United States,
871 F.3d 1215, 1224–25 (11th Cir. 2017)); see also United States v. Medina, No.
17-11176, 2020 WL 414815, at *3 (5th Cir. Jan. 24, 2020) (per curiam). We
conclude that Dennis failed to meet his burden. Therefore, we conclude that
the district court lacked jurisdiction to address the merits of Dennis’s claims. 4
We thus MODIFY the district court’s determination not to grant relief to

The relevant holding was overruled in part in United States v. Reyes-Contreras, 910
F.3d 169, 181–82 (5th Cir. 2018) (en banc), but, of course, we recognize that the analysis in
the current case focuses on the sentencing hearing which predated Reyes-Contreras, such
that Villegas-Hernandez was good law at the time.
3

If we did have jurisdiction, we would affirm the district court on the merits. See
United States v. Combs, 772 F. App’x 108, 109–10 (5th Cir. 2019) (citing United States v.
Albin Torres, 923 F.3d 420, 423–25 (5th Cir. 2019)), petition for cert. filed (U.S. Sept. 9, 2019)
(No. 19-5908); see also United States v. Gomez Gomez, 917 F.3d 332, 333–34 (5th Cir. 2019)
(holding that Texas aggravated assault qualifies as a crime of violence under 18 U.S.C.
§ 16(a) because it includes as an element the use of force), petition for cert. filed (U.S. July
19, 2019) (No. 19-5325).
4

Dennis v. United States
Petition Appendix

5
5a

Case: 18-10025

Document: 00515380876

Page: 6

Date Filed: 04/14/2020

No. 18-10025
change it from a denial of Dennis’s successive § 2255 to a dismissal on the
ground that it lacked jurisdiction and, as modified, AFFIRM.

Dennis v. United States
Petition Appendix

6
6a

Case: 18-10025

Document: 00515380894

Page: 1

Date Filed: 04/14/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_______________________

United States Court of Appeals
Fifth Circuit

No. 18-10025
Summary Calendar
_______________________

FILED
April 14, 2020
Lyle W. Cayce
Clerk

D.C. Docket No. 4:16-CV-577
UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
RYAN DENNIS,
Defendant - Appellant
Appeal from the United States District Court
for the Northern District of Texas
Before WIENER, HAYNES, and COSTA, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on file.
It is ordered and adjudged that the judgment of the District Court is
affirmed.

Dennis v. United States
Petition Appendix

7a

Case: 18-10025

Document: 00515451829

Page: 1

Date Filed: 06/15/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
___________________
No. 18-10025
___________________
UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
RYAN DENNIS,
Defendant - Appellant
_______________________
Appeal from the United States District Court
for the Northern District of Texas
_______________________
ON PETITION FOR REHEARING EN BANC
(Opinion April 14, 2020 , 5 Cir., __________ , __________ F.3d __________ )
Before WIENER, HAYNES, and COSTA, Circuit Judges.
PER CURIAM:
( x ) Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. No member of
the panel nor judge in regular active service of the court having
requested that the court be polled on Rehearing En Banc (FED. R. APP.
P. and 5TH CIR. R. 35), the Petition for Rehearing En Banc is DENIED.
( )

Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. The court

Dennis v. United States
Petition Appendix

8a

Case: 18-10025

Document: 00515451829

Page: 2

Date Filed: 06/15/2020

having been polled at the request of one of the members of the court and
a majority of the judges who are in regular active service and not
disqualified not having voted in favor (FED. R. APP. P. and 5TH CIR. R. 35),
the Petition for Rehearing En Banc is DENIED.
Dated: 6-13-2020
ENTERED FOR THE COURT:
____/s/ Catharina Haynes____________
CATHARINA HAYNES
UNITED STATES CIRCUIT JUDGE

Dennis v. United States
Petition Appendix

9a

Case: 16-10581

Document: 00513568209

Page: 1

Date Filed: 06/28/2016

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 16-10581
In re: RYAN DENNIS,
Movant

A True Copy
Certified order issued Jun 28, 2016

Clerk, U.S. Court of Appeals, Fifth Circuit

Motion for an order authorizing
the United States District Court for the
Northern District of Texas, Fort Worth to consider
a successive 28 U.S.C. § 2255 motion
Before CLEMENT, ELROD, and SOUTHWICK, Circuit Judges.
PER CURIAM:
Ryan Dennis, federal prisoner # 38032-177, moves for authorization to
file a successive 28 U.S.C. § 2255 motion. He may file a successive motion if
he makes a prima facie showing that his motion contains either “newly
discovered evidence that . . . would be sufficient to establish by clear and
convincing evidence that no reasonable factfinder would have found the
movant guilty,” or “a new rule of constitutional law, made retroactive to cases
on collateral review by the Supreme Court, that was previously unavailable.”
§ 2255(h); see Reyes-Requena v. United States, 243 F.3d 893, 897-98 (5th Cir.
2001).
Dennis relies on the new rule prong, invoking Johnson v. United States,
135 S. Ct. 2551, 2555-63 (2015), which struck down the residual clause of the
Armed Career Criminal Act (ACCA), 18 U.S.C. § 924(e)(2)(B)(ii), as
unconstitutionally vague. He contends that his enhanced sentence under the
Dennis v. United States
Petition Appendix

10a

Case: 16-10581

Document: 00513568209

Page: 2

Date Filed: 06/28/2016

No. 16-10581
ACCA appears to be based upon Johnson error because all of his prior Texas
convictions for aggravated assault under TEX. PENAL CODE § 22.02 could only
be violent felonies under the residual clause.
Johnson announced a new rule of constitutional law that the Supreme
Court has made retroactive to cases on collateral review. Welch v. United
States, 136 S. Ct. 1257, 1261-65 (2016); Johnson, 135 S. Ct. at 2560. The rule
announced by Johnson was previously unavailable. See, e.g., Johnson, 135 S.
Ct. at 2563, overruling James v. United States, 550 U.S. 192, 210 n.6 (2007).
Our assessment of Dennis’s motion is limited by the records available to
us, and we express no view of the ultimate merit of his claim. We have
sufficient information, however, to conclude that Dennis has made the
requisite prima facie showing for authorization to proceed further under
§ 2255(h)(2). See Reyes-Requena, 243 F.3d at 899.
IT IS ORDERED that the motion for authorization is GRANTED. Our
grant of authorization is tentative in that the district court must dismiss the
§ 2255 motion without reaching the merits if it determines that Dennis has
failed to make the showing required to file such a motion. See § 2244(b)(4);
Reyes-Requena, 243 F.3d at 899. The Clerk is DIRECTED to transfer the
motion for authorization and related pleadings to the district court for filing as
a § 2255 motion. See Dornbusch v. Comm’r, 860 F.2d 611, 612-15 (5th Cir.
1988).

The filing date shall be, at the latest, the date the motion for

authorization was received in this court, unless the district court determines
that an earlier filing date should apply. See Spotville v. Cain, 149 F.3d 374,
376 (5th Cir. 1998) (prisoner mailbox rule). The federal public defender’s
motion to appoint counsel is DENIED AS MOOT.

Dennis v. United States
Petition Appendix

2
11a

Case 4:16-cv-00577-Y Document 13 Filed 12/19/17

Page 1 of 3 PageID 170

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
RYAN DENNIS
VS.
UNITED STATES OF AMERICA

§
§
§
§
§

ACTION NO. 4:16-CV-577-Y
(Crim. No. 4:08-CR-109-Y

ORDER DENYING MOTION TO VACATE SENTENCE
Pending before the Court is defendant Ryan Dennis's Motion to
Vacate, Set Aside, or Correct Sentence under 28 U.S.C. § 2255 (doc.
1).

After review of the motion, the related briefs, and the

applicable law, the Court concludes that the motion should be denied.
In December 2008, a jury convicted Dennis of being a felon in
possession of a firearm in violation of 18 U.S.C. § 922(g)(1).
March 17, 2009, he was sentenced to 288 months in prison.

On
His

sentence was enhanced under the Armed Career Criminal Act ("ACCA"),
18 U.S.C. §924(e), due to his three prior convictions under Texas
law for aggravated assault with a deadly weapon.

Dennis appealed

his conviction, but the United States Court of Appeals for the Fifth
Circuit affirmed. He thereafter filed his first § 2255 motion, which
was denied, and that denial was affirmed by the Fifth Circuit.
After the United States Supreme Court's decisions in Johnson
v. United States, 135 S. Ct. 2251 (2015), and Welch v. United States,
136 S. Ct. 1257 (2016), Dennis timely filed the pending second § 2255
motion.

The motion was transferred to the Fifth Circuit, which

granted Dennis authorization to pursue the motion. Dennis contends
that his sentence enhancements under the ACCA are no longer valid

ORDER DENYING MOTION TO VACATE SENTENCE - Page 1
TRM/chr

Dennis v. United States
Petition Appendix

12a

18-10025.174

Case 4:16-cv-00577-Y Document 13 Filed 12/19/17

Page 2 of 3 PageID 171

in light of the Supreme Court's decisions in Johnson and Mathis v.
United States, 136 S. Ct. 2243 (2016) (holding that a prior conviction
under state law does not qualify as the generic form of a predicate
violent felony offense enumerated in the ACCA if an element of the
crime of conviction is broader than an element of the generic offense
because the crime of conviction enumerates various alternative factual
means of satisfying a single element).
After review, the Court concludes that Dennis's argument is
foreclosed by Fifth Circuit precedent. In United States v. Shepherd,
848 F.3d 425 (5th Cir. 2017), the Fifth Circuit concluded that the
district court did not err in holding that the defendant's conviction
for aggravated assault under Texas law was a "crime of violence" under
U.S.S.G. §4B1.2.

That sentencing guideline defines "crime of

violence" as an offense that "has as an element the use, attempted
use, or threatened use of physical force against the person of
another."

This definition is identical to the first prong of the

definition of "violent felony" under the ACCA.

See 18 U.S.C. §

924(e)(2)(B)(I). Citing United States v. Guzman, 797 Fl3d 346, 348
(5th Cir. 2015), the Fifth Circuit noted that it had already
found no plain error in holding that a defendant's Texas
conviction for aggravated assault has as an element the
threatened use of physical force against the person of
another. . . . [and that] the Supreme Court's recent
decision in Mathis . . . does not cast doubt on our
evaluation of the aggravated assault statute under the
guidelines. Because we have already held in GuillenAlvarez, 489 F.3d [197,] 200-01 [(5th Cir. 2007)] that Tex.
Penal Code 22.02(a)(2) qualifies as a conviction for the
enumerated offense of aggravated assault and is a crime
of violence, it is 'irrelevant whether the challenged
statutory alternatives are considered means or elements."
United States v. Villasenor-Ortiz, No. 16-10366, [675] Fed.
ORDER DENYING MOTION TO VACATE SENTENCE - Page 2
TRM/chr

Dennis v. United States
Petition Appendix

13a

18-10025.175

Case 4:16-cv-00577-Y Document 13 Filed 12/19/17

Page 3 of 3 PageID 172

Appx. [424], [428], 2017 WL 113917, at *3 (5th Cir. Jan.
11, 2017).
Shepherd, 848 F.3d at 427-28; cf. United States v. Lerma, No. 1641467, 2017 WL 6379724, *7 (5th Cir. Dec. 14, 2017) (concluding that
under Texas's aggravated-robbery statute, "threatening someone with
imminent bodily injury or death, or placing someone in fear of such,
while using or exhibiting a deadly weapon in the course of committing
theft with intent to obtain or maintain control of the property, has
as an element the threatened use of physical force against the person
of another" under the "use of force" prong of the definition of
"violent felony" under the ACCA).
As a result, because Dennis's aggravated-assault convictions
under Texas law remain predicate offenses under the ACCA, 18 U.S.C.
§ 924(e)(B)(2)(i), even after the decisions in Johnson and Mathis,
the Court concludes that Dennis's successive § 2255 motion should
be and hereby is DENIED. The Court further concludes that reasonable
jurists would not find this decision debatable or wrong, and therefore
declines to issue a certificate of appealability.

See 28 U.S.C. §

2253(c)(1)(B); FED. R. APP. P. 22(b); McGowen v. Thaler, 675 F.3d 482,
498 (5th Cir. 2012).
SIGNED December 19, 2017.
____________________________
TERRY R. MEANS
UNITED STATES DISTRICT JUDGE

ORDER DENYING MOTION TO VACATE SENTENCE - Page 3
TRM/chr

Dennis v. United States
Petition Appendix

14a

18-10025.176

Case: 18-10025

Document: 00514707440

Page: 1

Date Filed: 11/01/2018

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-10025

UNITED STATES OF AMERICA,
Plaintiff−Appellee,
versus
RYAN DENNIS,
Defendant−Appellant.

Appeal from the United States District Court
for the Northern District of Texas

O R D E R:
Ryan Dennis, federal prisoner #38032-177, was convicted of possessing
a firearm after a felony conviction in violation of 18 U.S.C. § 922(g)(1). The
district court sentenced him to 288 months in prison under the Armed Career
Criminal Act (“ACCA”), 18 U.S.C. § 924(e), based on his Texas convictions of
aggravated assault with a deadly weapon. This court granted Dennis authorization to file a successive 28 U.S.C. § 2255 motion raising a claim that his
Dennis v. United States
Petition Appendix

15a

Case: 18-10025

Document: 00514707440

Page: 2

Date Filed: 11/01/2018

No. 18-10025
Texas convictions no longer qualify as predicate offenses under the ACCA in
light of Johnson v. United States, 135 S. Ct. 2551 (2015), which held that the
residual clause of § 924(e)(2)(B)(ii) is unconstitutionally vague. The district
court denied relief.
Dennis moves for a certificate of appealability (“COA”) to appeal the
denial of his § 2255 motion. To obtain a COA, Dennis must make “a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); see
Slack v. McDaniel, 529 U.S. 473, 484 (2000). Where the district court has
rejected the constitutional claims on the merits, “[t]he [movant] must demonstrate that reasonable jurists would find the district court’s assessment of
the constitutional claims debatable or wrong.” Slack, 529 U.S. at 484. The
decision whether to grant a COA is made “without full consideration of the
factual or legal bases adduced in support of the claims” and without deciding
the merits of the appeal. Buck v. Davis, 137 S. Ct. 759, 773 (2017) (internal
quotation marks and citation omitted).
Because Dennis has made the required showing, a COA is GRANTED on
whether, after Johnson, Dennis no longer qualifies for sentencing under the
ACCA based on his convictions of Texas aggravated assault and whether relief
in a successive § 2255 proceeding is therefore warranted. See Slack, 529 U.S.
at 484. The clerk will issue a briefing notice.

______/s/ Jerry E. Smith__________
JERRY E. SMITH
United States Circuit Judge

Dennis v. United States
Petition Appendix

2
16a

